OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
MICROFINANCE ACTIVITIES
AUDIT REPORT NO. 9-000-09-003-P
December 4, 2008




WASHINGTON, DC
Office of Inspector General


December 4, 2008

MEMORANDUM

TO:                  EGAT/PR/MD Director, Conan French

FROM:                IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID’s Microfinance Activities (Audit Report No. 9-000-09-003-P)

This memorandum transmits our final report on the subject audit. The report contains two
recommendations for your action to improve the efficiency of the microfinance activities and the
achievement of planned results at missions worldwide. In finalizing the report, we considered
your comments on the draft report and have included them as an appendix. In your response,
you indicated planned actions and target dates to address both recommendations. Therefore,
we consider that management decisions have been reached for both recommendations. Please
coordinate final action to close the recommendations with the Audit, Performance and
Compliance Division (M/CFO/APC).

Thank you for the cooperation and courtesy extended to my staff during this audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 4

Audit Findings ................................................................................................................. 5

Did USAID implement its microfinance activities efficiently? ............................................ 5

     Eligibility Requirements Should Be Followed .............................................................. 6

Did USAID’s microfinance activities achieve planned results? ......................................... 7

     Data Should Be Verified Prior to Reporting................................................................. 8

     Monitoring Controls Should Be Strengthened........................................................... 11

Evaluation of Management Comments ....................................................................... 14

Appendix I – Scope and Methodology ........................................................................ 15

Appendix II – Management Comments ....................................................................... 17

Appendix III – Worldwide Audit Reports Issued ........................................................ 19
SUMMARY OF RESULTS
This report summarizes the results of six audits of USAID’s microfinance activities at
missions in Egypt, Kazakhstan, Nigeria, Peru, Romania, and Uganda (see appendix III).

USAID finances technical assistance to support a broad range of microfinance
development activities. As a part of the banking system, microcredit targets the very
poor, providing micro and small loans to individual borrowers for personal,
entrepreneurial, and established small business activities where few alternative credit
options exist. Microfinance activities also provide the predominant source of income and
employment for hundreds of millions of people (see page 3).

The audit objectives were to determine whether USAID implemented microfinance
activities efficiently and whether it achieved selected planned results (see page 4).

Based on the results of the six audits, three missions audited had implemented
microfinance activities efficiently. Two missions had not implemented their microfinance
activities efficiently, and the audit team was unable to determine if one mission
implemented its microfinance activities efficiently because the program was less than a
year old at the time of the audit and quantifiable measures of efficiency were unavailable
(see page 5). The following international benchmarks were used to determine the
efficiency of the microfinance programs:

   •   Operating expense ratio
   •   Operational sustainability ratio
   •   Borrowers per loan officer
   •   Loan writeoff ratio
   •   Portfolio at risk greater than 30 days
   •   Borrowers per staff member
   •   Active clients per staff member
   •   Cost per active client

Four of the missions had achieved planned results for their microfinance activities. One
mission partially achieved planned results, and the audit team was unable to determine
the achieved planned results for the remaining mission because of problems identified
with the definitions of key program indicators (see page 7).

The audit results were as follows:

   1) USAID/Egypt had not implemented its microfinance program efficiently but
      achieved overall planned results for fiscal years (FYs) 2005 and 2006.
   2) USAID/Kazakhstan had not implemented its microfinance activities efficiently
      but had partially achieved planned results for FY 2006.
   3) USAID/Nigeria had implemented its microfinance activities efficiently and had
      achieved planned results for FY 2006.
   4) USAID/Peru, during the past 5 years, had implemented its microfinance
      activities efficiently and had achieved planned results for FYs 2005 and 2006.
   5) USAID/Romania had implemented its microfinance activities efficiently and
      had achieved planned results by FY 2007.

                                                                                        1
   6) Because of the short-term nature of activities implemented during 12 or fewer
      months, USAID/Uganda had not documented quantifiable measures of
      efficiency to conclusively determine whether the mission’s activities were
      implemented efficiently. Furthermore, the audit was unable to determine
      whether USAID/Uganda’s microfinance activities had achieved planned
      results because of problems with the definitions of key program indicators.

This report contains two recommendations and summarizes the findings identified during
the mission audits related to loan eligibility requirements, data verification, and program
monitoring controls. In responding to a draft of this report, USAID management
presented plans to implement the recommendations within 90 days. Accordingly,
management decisions have been made on both recommendations.




                                                                                         2
BACKGROUND
In December 2004, Congress enacted Public Law 108-484, 1 the Microenterprise Results
and Accountability Act of 2004, to address concerns that too many program resources
were being spent on expensive consultants and contractors rather than reaching
entrepreneurs in the developing world. This law included a call for a microenterprise
office within USAID to approve the strategic plans of field missions and coordinate
preparation of the yearly report to Congress.

USAID has included microenterprise activities in its strategy for economic development
and poverty reduction. According to USAID’s Microenterprise Development office,
microenterprise activities are composed of four major components, including
microfinance. In many countries, microfinance—small, informally organized commercial
operations owned and operated mostly by the poor—constitute the majority of
businesses. They account for a substantial share of total employment and gross
domestic product and contribute significantly to poverty reduction.

Over the past three decades, support for microfinance development has been an
important feature of U.S. foreign assistance. As the leading bilateral donor for
microfinance development, USAID has advanced its vision of strengthening economic
opportunities for poorer households to enable families to build assets; cope with the risks
and vulnerability that accompany poverty; plan for better futures for their children; and
contribute to key sectors of local, national, and regional economies. As the predominant
source of income and employment for hundreds of millions of people worldwide, the
microfinance sector’s influence on individuals, households, and national economies is
clear and profound.

USAID’s microenterprise development strategy seeks to address two pressing
challenges:

    •   To link microenterprises to greater opportunities for growth, which include
        integrating them on more favorable terms into the formal economies of their
        countries and connecting them to expanded information and resource
        networks.

    •   To bring the benefits of microfinance and business development services to
        poorer people, ensuring that the positive impacts of microenterprise
        development programs reach those most in need.

According to the microenterprise report to Congress, funding levels for microfinance
activities worldwide totaled $228 million for fiscal years (FYs) 2005 and 2006. The
funding for the six missions audited was $33 million, or 14 percent of the $228 million
funded for microfinance worldwide activities.


1
  22 USC 2211a, titled Authorization, Implementation, Targeted Assistance, sections (a)(1)
through (a)(4), and (b)(2)(C) authorize assistance in developing countries to increase the
availability of credit, savings, and other services to microfinance and microenterprise clients
lacking full assess to capital, training, technical assistance, and business developments.

                                                                                             3
AUDIT OBJECTIVES
As part of the Office of Inspector General’s audit plan for FY 2007, the audit team
conducted this multicountry audit to answer the following questions:

•   Did USAID implement its microfinance activities efficiently?

•   Did USAID’s microfinance activities achieve planned results?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                 4
AUDIT FINDINGS
Did USAID implement its microfinance activities efficiently?
Three of the six missions audited implemented microfinance activities efficiently. Of the
remaining three missions, two did not implement their microfinance activities efficiently,
and the audit team was unable to determine if one mission implemented its microfinance
activities efficiently. (See appendix I)

The auditors used the results of several indicators and compared the results with
international benchmarks established in 2006 by the Microfinance Information Exchange
Market—a global, Web-based microfinance information platform used by missions
audited to measure efficiency and performance of their microfinance institutions. These
international benchmarks were portfolio at risk greater than 30 days, writeoffs and
operating expense ratios, cost per active client, borrowers per loan officer, active clients
per staff member, borrowers per staff member, and operational sustainability ratio.

The efficient implementation of the microfinance activities by USAID/Nigeria,
USAID/Peru, and USAID/Romania revealed that, in general, program implementers
provided both business development and financial activities to microfinance institutions
and tracked their efficiencies based on financial indicators (ratios and measures).

With respect to the remaining three missions, USAID/Egypt showed improvements in
efficiency in its microfinance program from calendar year 2005 to 2006. However, it did
not implement its microfinance program efficiently, having met only 7 of 18 international
benchmarks for the three microfinance institutions reviewed during 2006. Although
USAID/Kazakhstan did not implement its microfinance activities efficiently in 2006, it did
improve efficiencies for some of its benchmarks between FYs 2003 and 2006. Because
of the short-term nature of USAID/Uganda’s activities implemented during 12 or fewer
months, the mission did not have any quantifiable measures of efficiency available to
conclusively determine whether its activities were implemented efficiently.

The audit found that some missions should strengthen management controls regarding
compliance with eligibility requirements for loan applications, as discussed below.




                                                                                          5
Eligibility Requirements
Should Be Followed

 USAID’s Automated Directives System (ADS) chapter 219.3.5.2 documents some of
 the eligibility requirements that should be satisfied before USAID enters into
 agreements with microfinance institutions. Three of the six missions audited did not
 obtain the required written commitments that acknowledge the microfinance
 institutions’ acceptance of the responsibility to obtain financial sustainability. Mission
 officials did not understand the ADS requirements, assumed that the requirements
 were incorporated under the cooperative agreement with the implementing partner,
 believed that some sections were not applicable to their programs, or believed that
 compliance with those sections was the responsibility of the partner and not the
 mission. Consequently, missions were not assured that their microfinance activities
 operated efficiently to ensure long-term sustainability.

USAID policy under ADS chapter 219.3.5.2, “Microfinance Institution Commitment to
Attain Full Financial Substantiality,” states that missions must obtain a written
commitment from microfinance institutions to attain full financial sustainability on that
institution’s financial service activities within 7 years of the initial provision of USAID
assistance, prior to entering an agreement.

Three of the six missions audited did not receive financial commitments from the
microfinance institutions. USAID/Egypt did not receive the required written commitments
from any of its seven microfinance institutions. According to mission officials, they did
not understand that USAID guidance required commitment letters apart from and before
cooperative agreements were signed with the institutions. At USAID/Kazakhstan,
officials explained that they did not obtain financial sustainability commitment letters from
seven microfinance institutions because the mission assumed that the requirement was
incorporated into the cooperative agreement with the implementing partner. However, a
review of the cooperative agreement did not find such language. At USAID/Nigeria,
officials did not ensure that institutions met eligibility requirements before signing the
memorandums of understanding because they did not think that the requirements were
applicable to the mission or that the partner was responsible.

Without being required to prepare commitment letters, the microfinance institutions may
not be aware that they need to operate efficiently to ensure long-term sustainability.
Additionally, noncompliance with the ADS requirement increases the risk that unqualified
microfinance institutions will receive assistance. Compliance with this requirement
provides evidence that microfinance institutions know that, within 7 years, they will have
to operate efficiently to attain full financial sustainability.

Given that USAID guidance already specifies adherence to the ADS, which specifies
prior written commitments that sustainability be achieved within 7 years of the initial
provision of USAID assistance, and that three mission-level audit reports have already
made specific recommendations to correct the problem identified, this report does not
make a recommendation related to this issue.




                                                                                              6
Did USAID’s microfinance activities achieve planned results?

Four of the six missions audited achieved planned results. One mission partially
achieved its planned results, and the audit team was unable to determine whether one
mission’s microfinance activities achieved planned results because of problems
identified with the definitions of key program indicators.

The following summarizes the results of the six missions:

   (1) USAID/Egypt achieved the overall planned results for its microfinance
   program in FYs 2005 and 2006. This audit’s determination of overall planned
   results was based on planned and reported results within the mission’s
   performance management plan covering seven microfinance institutions that
   dealt specifically with the value of small and microenterprise loans disbursed and
   the annual number of loans at the poverty level (under $350.)

   (2) USAID/Kazakhstan partially achieved the planned results for its developing
   and expanding microfinance institutions. This mission’s microfinance activities
   achieved four of the seven performance targets reviewed, while activities for the
   mature microfinance institutions achieved five of the six targets reviewed.

   (3) USAID/Nigeria achieved the planned results by meeting or exceeding targets
   for almost all of the project indicators for FY 2006. In addition, the program made
   a positive impact on the microfinance institutions with which it worked, their
   beneficiaries, and the microfinance policy environment in Nigeria.

   (4) USAID/Peru achieved all three planned results pertaining to the value of loan
   portfolio outstanding, the number of active clients/borrowers, and the percentage
   of active women clients reported in FYs 2005 and 2006.

   (5) USAID/Romania achieved its planned results by exceeding six of the eight
   planned objectives specified for that fiscal year while making substantial progress
   in achieving the remaining two. As of March 2007, in addition to meeting its
   targets, the loan program had achieved the overall program objectives
   established at its inception.

   (6) At USAID/Uganda, the audit team was unable to determine whether
   microfinance activities achieved planned results because of the problems
   identified with the definitions of key program indicators. For three of the four
   program indicators reviewed, the indicator definitions used in the mission’s
   performance management plan differed from those used by the implementing
   partner in reporting data to USAID.




                                                                                         7
                   Photograph of a worker at a factory in Timisoara,
                   Romania, making shoes from raw materials purchased
                   with a short-term loan received through the Micro,
                   Small, and Medium Enterprises loan program, May
                   2007.

Although four of the six missions achieved their planned results, the audit found that
some missions should strengthen management controls pertaining to data verification,
monitoring, and evaluation controls. The following section discusses these issues.

Data Should Be Verified
Prior to Reporting

 According to ADS chapter 203.3.5.2, the operating unit and strategic objectives
 teams should be aware of the strengths and weaknesses of their data. However, two
 missions reported data to Congress that were inconsistent with data recorded
 because of weaknesses in data verification procedures. A third mission did not verify
 data reported because of a lack of specific directions to verify data before
 submissions; and a fourth mission did not issue its final report on its data quality
 assessment because it was awaiting comments from partners. Consequently,
 USAID may have based some of its management decisions on inaccurate data, as
 well as reported some inaccurate information to stakeholders such as Congress.

ADS chapter 203.3.5.2 requires operating units and other teams to be aware of the
strengths and weaknesses of their data and the extent to which data integrity can be
trusted to influence management decisions. As stated in “Analyzing Performance Data,”
results-oriented management requires that reported data be accurate and reliable, and
missions should take steps to ensure that submitted data are adequately supported.

In addition, USAID’s Analyzing Performance Data Toolkit supplementary guidance
states that the goal of assessing data from implementing partners and secondary
sources is to be aware of data strengths and weaknesses and the extent to which data
can be trusted when making management decisions.


                                                                                         8
However, of the six missions audited, two reported inaccurate information to
stakeholders, a third did not verify and cross check the microfinance data in its annual
reporting activities, and a fourth did not finalize its data quality assessments. For
example, in its FY 2006 annual report to Congress, USAID/Egypt reported data that
were inconsistent with the data recorded at the mission because of weaknesses in its
data entry and verification procedures. For one of the two institutions USAID/Egypt
reported, the difference noted was 34 percent. In addition, the database that supports
the information reported to Congress contained several errors for two of the three
microfinance institutions.

USAID/Peru reported inaccurate and inconsistent data to Congress in its FY 2005 and
2006 microfinance results reports because the staff member responsible for information
verification did not verify the information; she thought that she was responsible only for
recording it. As a result, there were significant differences between reported and audited
figures for two of the three results reported by USAID/Peru’s partners in FY 2005,
pertaining to the number of borrowers and the number of savings account clients. The
number of savings account clients was overreported by 308 percent, while the number of
borrowers was underreported by 63 percent. There were also inconsistencies in the
FY 2006 microenterprise results report. According to documented results, USAID/Peru
provided assistance to 315,117 borrowers, while the report to Congress included only
22,467 borrowers because data for two institutions were not included.

USAID/Nigeria did not verify some of the information that it reported to USAID
headquarters regarding the value of loans because of an oversight and lack of specific
directions to verify data before submissions. As a result, the value of total loans was
underreported by $13.2 million because the contractor erroneously dropped the last
three digits of the local currency equivalent and, to compound the problem, reported the
local currency amounts in U.S. dollars. Similar errors were noted for three components
of this indicator: (1) the mission underreported the value of loans to women by
$12.6 million, (2) the mission overreported the value of loans to other disadvantaged
groups by $34.2 million, and (3) the mission underreported the value of micro loans by
$13.2 million.




                                                                                        9
                   An auditor interviewing a Caritas borrower who operates a
                   small hotel on the island of Los Uros, Puno, Peru (group
                   loan $3,142). Taken by an auditor on June 15, 2007.


In June 2006, a USAID/Uganda contractor conducted a data quality assessment of the
mission’s microfinance activities but had not issued the final report on data quality
assessment. According to the mission, a final data quality assessment report had not
been issued because some of the major stakeholders (the mission’s strategic objective
teams and their implementing partners) had not yet provided comments owing to their
busy schedules.

In the absence of a final data quality assessment report, it was difficult to determine
whether the issues addressed in the draft report had merit and how outstanding issues
would be resolved. In addition, without a final data quality assessment, it was difficult for
the mission to ensure that its implementing partners could mitigate data quality issues.

Without data quality control and verification, USAID cannot be assured that decision
makers will have the best available information with which to make decisions. Since
microfinance activities in four of the six missions audited had data quality issues, the
audit team is concerned that microfinance activity in other missions might also have data
quality issues. Given the importance of data quality assurance, all missions with
microfinance activities should be provided clear and explicit guidance. Therefore, this
audit makes the following recommendation.

   Recommendation No. 1:           We recommend that USAID’s Director of
   Microenterprise Development office in the Bureau of Economic, Growth,
   Agriculture and Trade issue guidance to all missions with microfinance activities
   to provide assurance that (a) data quality assessments are conducted properly
   and (b) reported results are properly verified, in accordance with the established
   agency guidance.

                                                                                          10
Monitoring Controls Should Be Strengthened

 According to Agency policy, cognizant technical officers are responsible for ensuring
 that USAID exercises prudent management of assistance awards. One mission did
 not have a business plan to assess performance because mission officials did not
 perceive the need for performance targets within a business plan that goes beyond
 institutional financial information. Additionally, this mission did not monitor its
 technical assistance to microfinance institutions because the implementing partner’s
 plans did not meet the USAID’s requirements. Another mission set unrealistic targets
 because there were few or no historical data to follow, while three missions did not
 document sites visits mainly because of insufficient time. As a result, management is
 at risk of not having timely information on program performance to measure progress
 and influence decision making.

USAID policy stipulates that cognizant technical officers are responsible for ensuring that
USAID exercises prudent management of assistance awards and for making the
achievement of program objectives easier by monitoring and evaluating the recipient and
its performance. Specifically, ADS chapter 203.3.2, “Performance Management,” states
that missions are responsible for establishing systems to measure progress toward their
intended objectives. In addition, ADS 203.3.4.5 states that USAID operating units
should set performance targets that can optimistically but realistically be achieved within
the stated timeframe and with the available resources. ADS 303.2(f) states that
cognizant technical officers are responsible for monitoring and evaluating USAID
implementers’ work performance to ensure that program objectives are achieved.
Required technical officer action includes contact through site visits and liaison with the
implementing partners and contractors providing technical assistance, as well as
reviewing implementation plans with performance indicators.

At USAID/Egypt, none of the three microfinance institutions reviewed had a business
plan to assess and track performance information according to USAID policy because
officials from USAID/Egypt and management of the three microfinance institutions did
not perceive the need for performance targets within a business plan that goes beyond
institutional financial information. A business plan that incorporates performance targets
would provide managers of microfinance institutions with an important tool to monitor the
institution’s progress and compare it with the targets. It would also allow USAID
managers to effectively monitor the progress of microfinance institutions. Without this
information, USAID/Egypt’s management decisions would not be based on established
performance-based business plans.

In addition, USAID/Egypt did not monitor the progress of its technical assistance to
microfinance institutions. For example, the mission had not approved an implementation
plan with associated indicators for its technical assistance contractor because the
indicators did not meet USAID’s requirements.                Also, indicators within the
implementation plan did not align with performance indicators in the mission’s
performance management plan, and quarterly reports did not report progress against
approved indicators. The contractor started to report more useful performance
information, but this information still did not align with the unapproved implementation
plan. Consequently, the mission could not be assured that progress for technical
assistance to microfinance institutions was meeting expectations.




                                                                                        11
At USAID/Kazakhstan, according to the mission and the implementing partner, the target
established for one indicator was too conservative and the targets for two other
indicators were too optimistic. This was the first microenterprise cooperative agreement,
and according to the mission and the implementing partner, few or no historical data
from the microfinance institutions were available to help develop targets, and therefore
the mission and partner relied on estimates. Additionally, the mission did not perform
adequate oversight and monitoring of the program that would have identified and
adjusted excessive variances in a timelier manner. Making targets more realistic keeps
them relevant and encourages improved results. Targets that are set too low or too high
are not useful in gauging performance, enhancing the quality of the loan portfolio, or
managing resources.

At USAID/Egypt, USAID/Kazakhstan, and USAID/Uganda, mission staff did not
document site visits for various reasons. Officials at USAID cited competing work
priorities that did not allow sufficient time to adequately document the information
reviewed during field trips. At USAID/Egypt, the technical officer documented some site
visits to microfinance institutions but none to the technical assistance contractor
responsible for providing direct assistance to the microfinance implementing partners.
Nor did the technical officer follow up with the implementing partners to address
performance targets. USAID/Egypt had not established any performance targets for the
technical assistance contractor, even though these targets were required by USAID,
because of unresolved flaws in the implementation plan. USAID/Kazakhstan officials
reported that the technical officer had not documented any site visits from 2003 to 2005
because documenting each site visit became a lower priority in the overall workload. In
addition, temporary staff reassignments caused a lack of program oversight at
USAID/Kazakhstan. When staff assumed other responsibilities at another mission for 8
months, mission officials did not adjust the workload and assign an alternate staff person
to assume the oversight duties. USAID/Uganda also lacked site visit documentation.

Since site visits were not conducted routinely, USAID risked inconsistent program
management that may adversely impact loan performance and loan losses. In one
example, auditors on a site visit found that a 1987 tractor used for loan collateral was not
operational. Another tractor with a 1968 model year also was used for collateral, but it
was in operating condition. Although it is understandable that staff may have assumed
that the later model vehicle would be operational, the reverse was true.




                                                                                         12
                     Photograph of a nonoperational 1987 tractor,
                     Shymkent, Kazakhstan. Taken by an auditor on
                     March 11, 2007.

This audit is not making recommendations related to the lack of a performance-based
business plan or the lack of monitoring technical assistance at USAID/Egypt; these
findings were already addressed at the mission audit level. Similarly, this audit does not
make a recommendation for unrealistic targets identified at USAID/Kazakhstan; this
finding also was addressed at the mission audit level.

However, USAID management relies on timely and accurate information about program
performance to make its decisions. Site visits provide opportunities for mission staff to
personally monitor USAID programs and document observations. These documented
observations can influence managerial decisions and ensure that the beneficiaries, the
implementer, and the mission all achieve desired results.

Given the importance of monitoring, all missions with microfinance activities should be
provided with specific guidance.        Therefore, this audit makes the following
recommendation.

   Recommendation No. 2: We recommend that USAID’s Director of Microfinance
   Development office in the Bureau of Economic, Growth, Agriculture, and Trade
   issue guidance that reiterates to the program’s cognizant technical officers the
   importance of the established agency guidance for monitoring microfinance
   activities and assessing the recipients’ performance.




                                                                                       13
EVALUATION OF
MANAGEMENT COMMENTS
The Microenterprise Development office concurred with both recommendations.

With respect to recommendation no. 1, the Microenterprise Development office plans to
issue guidance within 90 days that reminds missions that (a) data quality assessments
must be conducted properly and (b) results must be properly verified in accordance with
the established Agency guidance. This guidance will be incorporated into the annual
guidance issued for reporting microenterprise results and will include reference to
relevant ADS sections and other established agency guidance.

With respect to recommendation no. 2, the Microenterprise Development office plans to
issue guidance within 90 days that reiterates to the program’s cognizant technical
officers the importance of the established Agency guidance for monitoring microfinance
activities and assessing the recipients’ performance. This new guidance will be
incorporated into the annual guidance issued for reporting microenterprise results and
will include reference to relevant ADS sections and other established agency guidance.

Based on these plans of action, management decisions have been reached for both
recommendations.




                                                                                    14
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit to answer the following questions:
(1) Did USAID implement its microfinance activities efficiently? (2) Did USAID’s
microfinance activities achieve planned results? This report summarizes the audit work
conducted at USAID headquarters in Washington, DC, and at selected overseas
missions.

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The audit fieldwork was conducted from February 23, 2007, through May 27, 2008, as
follows:

   •   Kazakhstan – February 23 through March 16, 2007

   •   Romania – April 23 through May 18, 2007

   •   Uganda – April 24 through June 13, 2007

   •   Egypt – May 6, 2007, through May 27, 2008

   •   Nigeria – May 8 through May 25, 2007

   •   Peru – June 4 through June 20, 2007

The funding for the six missions audited was $33 million, or 14 percent of the $228
million funded for microfinance worldwide activities.

In planning and performing these audits, we reviewed and assessed the effectiveness of
management controls related to the microfinance activities. We identified management
control as the missions annual self-assessment of management control as required by
the self-assessment of management control as required by the Federal Managers’
Financial Integrity Act; mission policies and procedures; monitoring activities; accurate
and timely recording of transactions and events; maintenance of documents; and the
collection and verification of data supporting reported program results and financial data.

Methodology
To answer the audit objectives, we obtained an understanding of the microfinance
program by reviewing the applicable laws, regulations, guidance, and program
documents. We interviewed implementing partners, microfinance institutions, loan


                                                                                        15
                                                                              APPENDIX I


borrowers, and USAID’s mission and Washington, DC, officials. We also reviewed
relevant documentation such as award documents, cooperative agreements and
amendments, mission correspondence, and performance plans, as well as financial and
field visit reports produced by the missions and annual work plans produced by
implementing partners and microfinance institutions.

To answer the first audit objective, we used the results of several indicators and
compared the results with international benchmarks established in 2006 by the
Microfinance Information Exchange Market—a global, Web-based microfinance
information platform used by missions to measure the efficiency and performance of
their microfinance institutions. The audit team selected the following international
benchmarks:

   •   Operating expense ratio

   •   Operational sustainability ratio

   •   Borrowers per loan officer

   •   Loan writeoff ratio

   •   Portfolio at risk greater than 30 days

   •   Borrowers per staff member

   •   Active clients per staff member

   •   Cost per active client

To answer our second audit objective, we compared reported results to several targeted
indicators, including active loan portfolio outstanding, jobs created and sustained, level
of financial sustainability, number of loans disbursed, percentage of portfolio at risk, and
percentage of active women clients.




                                                                                         16
                                                                               APPENDIX II



MANAGEMENT COMMENTS
To:              IG/A/PA Director, Steven H. Bernstein

From:            EGAT/PR/MD, Director, Conan French

Cc:              AA/EGAT, Jacqueline E. Schafer
                 [Name redacted by OIG due to privacy considerations]
                 [Name redacted by OIG due to privacy considerations]

Subject:         EGAT Response to Draft Audit of USAID’s Microfinance Activities

Comments regarding Recommendation No.1

      Recommendation No.1:         We recommend that USAID’s Director of the
      Microenterprise Development office in the Bureau of Economic, Growth,
      Agriculture and Trade, issue guidance to all missions with microfinance activities
      to provide assurance that (a) data quality assessments are conducted properly
      and (b) reported results are properly verified, in accordance with the established
      agency guidance.

      EGAT/PR/MD concurs with this recommendation and will take the following
      action:

      Within 90 days of the approval of this report, EGAT/PR/MD will issue guidance to
      all missions with microfinance activities reminding them that a) data quality
      assessments must be conducted properly and that (b) the missions ensure that
      reported results are properly verified in accordance with the established agency
      guidance. This guidance will be incorporated into the annual guidance issued for
      the Microenterprise Results Reporting.

      EGAT/PR/MD will include in its guidance to missions reference to relevant ADS
      sections and other relevant established agency guidance. Missions will be
      responsible for ensuring their own compliance to the agency guidance.

Comments regarding Recommendation No.2

      Recommendation No. 2:          We recommend that USAID’s Director of the
      Microenterprise Development office in the Bureau of Economic, Growth,
      Agriculture, and Trade issue guidance that reiterates to the program’s cognizant
      technical officers the importance of the established agency guidance for
      monitoring microfinance activities and assessing the recipients’ performance.

      EGAT/PR/MD concurs with this recommendation and will take the following
      action:

      Within 90 days of the approval of this report, EGAT/PR/MD will issue guidance
      that reiterates to the program’s cognizant technical officers the importance of the
      established agency guidance for monitoring microfinance activities and

                                                                                            17
                                                                    APPENDIX II


assessing the recipients’ performance. This guidance will be incorporated into
the annual guidance issued for the Microenterprise Results Reporting.

EGAT/PR/MD will include in its guidance to missions reference to relevant ADS
sections and other relevant established agency guidance. Missions will be
responsible for ensuring their own compliance to the agency guidance.




                                                                                 18
                                                                         APPENDIX III



WORLDWIDE AUDIT
REPORTS ISSUED
The following reports were issued as part of the Inspector General's worldwide audit of
USAID’s microfinance activities and are available on USAID’s Web site at
http://www.usaid.gov/oig/public/aud_usaid.htm.

Report No. 6-263-08-004-P, Audit of USAID/Egypt’s Microfinance Activities,
May 27, 2008.

Report No. 9-901-07-008-P, Audit of USAID/Kazakhstan’s Microfinance Activities,
September 24, 2007.

Report No. 7-620-08-002-P, Audit of USAID/Nigeria’s Microfinance Activities,
November 5, 2007.

Report No. 1-527-07-012-P, Audit of USAID/Peru’s Microenterprise Activities,
September 27, 2007.

Report No. 8-186-07-003-P, Audit of USAID/Romania’s Microenterprise Activities,
July 10, 2007.

Report No. 4-617-07-010-P, Audit of USAID/Uganda’s Microfinance Activities,
August 30, 2007.




                                                                                    19
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
